No.
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTURAL PROPERTY AND
DIRECTOR, US PATENT AND TRADEMARK OFFICE, PETITIONER
v.
IMPLICIT, LLC, ET AL.
_________________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTURAL PROPERTY AND
DIRECTOR, US PATENT AND TRADEMARK OFFICE, PETITIONER
v.
TRANSTEX INC., ET AL.
_________________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTURAL PROPERTY AND
DIRECTOR, US PATENT AND TRADEMARK OFFICE, PETITIONER
v.
NEW VISION GAMING & DEVELOMENT, INC., ET AL.
_________________
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR INTELLECTURAL PROPERTY AND
DIRECTOR, US PATENT AND TRADEMARK OFFICE, PETITIONER
v.
UNILOC 2017 LLC, ET AL.
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of the PETITION FOR A
WRIT OF CERTIORARI (WITH SEPARATE APPENDIX), via email and first-class mail, postage prepaid, this 21st day of
May, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 2,188 words, excluding the parts of
the document that are exempted by Supreme Court Rule 33.1(d). I declare under penalty of perjury that the foregoing is true and
correct. Executed on
May 21, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
May 21, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in addition to mailing your brief
via first-class mail, we would appreciate a fax or email copy of your brief. If that is acceptable to you, please fax your brief to
Charlene Goodwin, Supervisor, Case Management, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218. Thank you for your consideration
of this request.

ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR
INTELLECTURAL PROPERTY AND DIRECTOR, US PATENT AND TRADEMARK
OFFICE
IMPLICIT, LLC, ET AL.
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR
INTELLECTURAL PROPERTY AND DIRECTOR, US PATENT AND TRADEMARK
OFFICE
TRANSTEX INC., ET AL.
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR
INTELLECTURAL PROPERTY AND DIRECTOR, US PATENT AND TRADEMARK
OFFICE
NEW VISION GAMING & DEVELOMENT, INC., ET AL.
ANDREW HIRSHFELD, ACTING UNDER SECRETARY OF COMMERCE FOR
INTELLECTURAL PROPERTY AND DIRECTOR, US PATENT AND TRADEMARK
OFFICE
UNILOC 2017 LLC, ET AL.
J. DEREK MCCORQUINDALE
FINNEGAN HENDERSON FARABOW GARRETT
& DUNNER LLP
1875 EXPLORER STREET
SUITE 800
RESTON, VA 20190
571-203-2768
DEREK.MCCORQUINDALE@FINNEGAN.COM
RORY PATRICK SHEA
LEE SULLIVAN SHEA & SMITH LLP
656 W. RANDOLPH STREET
FLOOR 5W
CHICAGO, IL 60661
312-754-9602
SHEA@LS3IP.COM

JOHN CARACAPPA
STEPTOE & JOHNSON, LLP
1330 CONNECTICUT AVENUE, NW
WASHINGTON, DC 20036
202-429-6267
JCARACAP@STEPTOE.COM

MICHAEL HARTMANN
LEYDIG, VOIT & MAYER, LTD
180 N. STETSON
SUITE 4900
312-616-5600
MHARTMANN@LEYDIG.COM
MATTHEW JAMES DOWD
DOWD SCHEFFEL PLLC
1717 PENNSYLVANIA AVENUE, NW
SUITE 1025
WASHINGTON, DC 20006
202-559-9175
MDOWD@DOWDSCHEFFEL.COM
GENE WHAN LEE
PERKINS COIE LLP
1155 AVENUE OF THE AMERICAS
22ND FLOOR
NEW YORK, NY 10036
GLEE@PERKINSCOIE.COM
JAMES ETHERIDGE
ETHERIDGE LAW GROUP
2600 E. SOUTHLAKE BOULEVARD
SUITE 120-324
SOUTHLAKE, TX 76092
817-470-7249
JIM@ETHERIDGELAW.COM
GREGORY H. LANTIER
WILMER CUTLER PICKERING HALE
AND DORR LLP
1875 PENNSYLVANIA AVENUE, NW
WASHINGTON, DC 20006
GREGORY.LANTIER@WILMERHALE.COM
DEBRA JANECE MCCOMAS
HAYNES & BOONE, LLP
2323 VICTORY AVENUE
DALLAS, TX 75219
DEBBIE.MCCOMAS@HAYNESBOONE.COM

